TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Vital Decisions Must Be Made to Ensure
                        Successful Implementation of
                 Customer Account Data Engine Capabilities



                                           July 13, 2007

                              Reference Number: 2007-20-080




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 13, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Vital Decisions Must Be Made to Ensure
                             Successful Implementation of Customer Account Data Engine
                             Capabilities (Audit # 200620012)

 This report presents the results of our review of the Customer Account Data Engine (CADE).
 The overall objectives of this review were to review current CADE Release 2 activities for
 potential issues affecting the delivery of new capabilities planned for the 2007 Filing Season and
 reassess long-term CADE Project (hereafter referred to as the Project) goals and objectives in
 light of the growing complexity and enormity of the Project’s tasks. This review was part of our
 Fiscal Year 2006 audit plan for reviews of the Internal Revenue Service’s (IRS) Business
 Systems Modernization efforts.

 Impact on the Taxpayer
 The CADE will provide the foundation for managing taxpayer accounts to achieve the IRS
 modernization vision. It consists of databases and related applications that will replace the IRS’
 official repository of taxpayer information (the Master File). The Information Technology
 Modernization Vision and Strategy plans for a phased replacement of IRS computer systems to
 better support today’s tax laws, policies, and taxpayer needs. The CADE is helping the IRS
 realize this Strategy.

 Synopsis
 The IRS initiated the Project in September 1999 and delivered Release 1.1 in August 2004,
 which successfully processed refund and even-balance Income Tax Returns for Single and Joint
 Filers With No Dependents (Form 1040EZ) for single taxpayers with no pending tax issues.
 Release 1.2 started processing tax returns in January 2005. The IRS and the PRIME contractor
                       Vital Decisions Must Be Made to Ensure Successful
                  Implementation of Customer Account Data Engine Capabilities



delivered the first biannual release (Release 1.3.1) in September 2005. The second biannual
release (Release 1.3.2) was delivered in January 2006 in time for the 2006 Filing Season. As of
December 23, 2006, the CADE had processed more than 7.3 million tax returns and generated
more than $3.4 billon in refunds. This was a significant increase over the approximately
1.4 million tax returns processed in Calendar Year 2005 that generated refunds totaling more
than $427 million.
The PRIME contractor was to deliver Release 2.1 by August 31, 2006, and Release 2.2 by
December 31, 2006. In June 2006, the IRS and the PRIME contractor agreed to revise the
Release 2 scope. The Release 2 requirements were revised based on the contracted goal of
processing 33 million tax returns during the 2007 Filing Season and did not consider the
complexity of the programming involved for processing these returns. Subsequently,
Release 2.1 was approximately $4.2 million (15 percent)1 over budget and was not within the
acceptable 10 percent budget variance tolerance.2 Further, the IRS deferred several Release 2.1
and 2.2 requirements to later releases. The implementation of Release 2.2 was postponed from
the start of the 2007 Filing Season, January 16, 2007, until March 6, 2007, so the IRS could
make required performance improvements and complete filing season updates.
A pattern of deferring Project requirements to later releases and missing release deployment
dates has continued from the Project’s beginning. Allowing this pattern to continue will
undermine the long-term success of the Project. The IRS and the PRIME contractor have
deferred Project requirements and missed target dates because they agreed to an unrealistic scope
of work, did not follow the Enterprise Life Cycle3 Preliminary Design Phase guidelines, and did
not assign adequate PRIME contractor staffing.
In addition, the approach taken to implement the CADE’s architectural design will not
support the Project’s long-term goals and objectives. While the CADE is being phased in over
multiple years and processing increasingly more complex tax returns, the IRS has not completed
addressing (1) the need to include a database that stores historical account data, (2) essential
processing requirements deferred since Release 1 (first planned for implementation in
January 2002), and (3) a process to improve the efficiency of the daily processing cycle.
To meet the CADE’s long-term computer processing demands, further consideration needs to be
given to alternative design approaches. The Project design currently includes building a
computer system large enough to process the highest daily volume of tax returns received by the
IRS, although this processing capacity is needed for only a few days each year. Alternative
design solutions, such as obtaining additional computer resources on an interim basis or delaying
the processing of some tax return types on extremely high-volume processing days, have been


1
  CADE Release 2.1 was budgeted to use $27,049,000 and required $31,239,000 for completion.
2
  Business Systems Modernization 2006 and 2007 Expenditure Plan, dated August 2006.
3
  Appendix VI presents an overview of the Enterprise Life Cycle.
                                                                                                  2
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities



considered but have not been thoroughly developed. In addition, based on the current design of
the Project, meeting storage and processing demand may be cost prohibitive.

Recommendations
The Chief Information Officer should ensure the IRS negotiates a reasonable scope of work for
future CADE release development that considers the amount and difficulty of the work and the
filing season time constraints. This would include ensuring the scope of work includes adequate
staffing plans and ensuring the PRIME contractor and Project team follow Enterprise Life Cycle
guidance in meeting Preliminary Design Phase criteria for each release and major release
segment. In planning future release activity, the Chief Information Officer should limit delivery
to essential capabilities and filing season updates and consider postponing new capabilities until
key business decisions are made and previously deferred essential requirements are
implemented. Finally, the Chief Information Officer should partner with the Wage and
Investment Division Business Modernization Office to jointly review alternative design solutions
and identify process improvements for the Project. Alternative design solutions need to be
explored to ensure the CADE can operate as efficiently and effectively as possible.

Response
The Chief Information Officer agreed with all of our recommendations. Planned corrective
actions include a new process for gathering requirements early in the process by partnering with
the Business Rules and Requirements Management Program Office to conduct detailed
requirements identification. This strategy supports the IRS’ ability to adequately define the
scope of work, clarify business needs, and document clearly defined requirements within
established boundaries. Since April 2007, CADE release managers review and analyze staff
resources listed by the PRIME contractor on a weekly basis to ensure adequate contractor
support is provided. Enterprise Life Cycle guidelines for performing Customer Technical
Reviews and Life Cycle Stage Reviews are being accomplished through a tailoring plan.
Tailoring plans will be used for each subsequent CADE release and major release segment.
Contracting and development activities are in process to implement previously deferred
requirements. Further, the Chief Information Officer is actively engaged and continues to ensure
the CADE Program Office and Wage and Investment Division Business Modernization Office
jointly review design solutions and identify process improvements. In support of this issue, a
joint technical assessment team is being formed to identify CADE technical constraints and
improvement opportunities with regard to the architecture, performance, and software quality.
The IRS expects to have preliminary outcomes from this effort by June 1, 2008. Management’s
complete response to the draft report is included as Appendix IX.



                                                                                                 3
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             4
                            Vital Decisions Must Be Made to Ensure Successful
                       Implementation of Customer Account Data Engine Capabilities




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Customer Account Data Engine Project Has Started to Move
          Toward the Long-Term Information Technology Modernization Vision
          and Strategy ..................................................................................................Page 2
          Plans for Deploying Customer Account Data Engine Releases Have
          Not Been Achieved .......................................................................................Page 3
                    Recommendation 1:........................................................Page 6

          The Approach Taken to Implement the Architectural Design Will Not
          Support Customer Account Data Engine Project Long-Term Goals and
          Objectives .....................................................................................................Page 8
                    Recommendation 2:........................................................Page 10

          Implementing Current Technology to Support the Customer Account
          Data Engine’s Ultimate Computer Processing Demands May Be
          Cost Prohibitive ............................................................................................Page 10
                    Recommendation 3:........................................................Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Customer Account Data Engine Project Costs ....................Page 18
          Appendix V – Customer Account Data Engine Release Schedules .............Page 20
          Appendix VI – Enterprise Life Cycle Overview ..........................................Page 26
          Appendix VII – Corrective Actions to Prior Audit Recommendations........Page 30
          Appendix VIII – Glossary of Terms .............................................................Page 42
              Vital Decisions Must Be Made to Ensure Successful
         Implementation of Customer Account Data Engine Capabilities



Appendix IX – Management’s Response to the Draft Report ......................Page 47
            Vital Decisions Must Be Made to Ensure Successful
       Implementation of Customer Account Data Engine Capabilities




                      Abbreviations

CADE            Customer Account Data Engine
IRS             Internal Revenue Service
MIPS            Millions of Instructions Per Second
                           Vital Decisions Must Be Made to Ensure Successful
                      Implementation of Customer Account Data Engine Capabilities




                                                 Background

The Customer Account Data Engine (CADE) will provide the foundation for managing taxpayer
accounts to achieve the Internal Revenue Service’s (IRS) modernization vision. The CADE
consists of databases and related applications that will replace the IRS’ existing Master File1
processing systems, the IRS’ official repository of taxpayer information.
The IRS initiated the CADE Project (hereafter referred to as the Project) in September 1999 and
delivered Release 1.1 in August 2004, which successfully processed refund and even-balance
Income Tax Returns for Single and Joint Filers With No Dependents (Form 1040EZ) for single
taxpayers with no pending tax issues. Release 1.2 started
processing tax returns in January 2005. The IRS and the
                                                                 Through June 8, 2006, the IRS
PRIME contractor delivered the first biannual release
                                                                had obligated $165.7 million for
(Release 1.3.1) in September 2005. The second biannual           the design, development, and
release (Release 1.3.2) was delivered in January 2006 in       implementation of the CADE and
time for the 2006 Filing Season.                                planned to spend an estimated
                                                                   $233.9 million through
Congress authorized $54 million in Fiscal Year 2005 and                 Fiscal Year 2007.
$60 million in Fiscal Year 2006 for the Project.
Additionally, the IRS requested $85 million in Fiscal
Year 2007 for the Project, but this amount has been reduced to about $58 million. Appendix IV
presents an analysis of the Project release costs through Fiscal Year 2007, which total about
$233.9 million.
In July 2006, the CADE Data Architecture and Analysis Study identified alternatives to organize
and manage Project data. Also, in October 2006, the Modernization and Information
Technology Services organization published the Information Technology Modernization Vision
and Strategy, which established project development priorities that include the Project. This
Strategy provides a 5-year plan for developing modernization projects and processes.
This review was performed at the Modernization and Information Technology Services
organization’s facilities in New Carrollton, Maryland, during the period August 2006 through
February 2007. The audit was conducted in accordance with Government Auditing Standards.
This review was part of our Fiscal Year 2006 audit plan for reviews of the IRS’ Business
Systems Modernization efforts. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.



1
    See Appendix VIII for a glossary of terms.
                                                                                            Page 1
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities




                               Results of Review

The Customer Account Data Engine Project Has Started to Move
Toward the Long-Term Information Technology Modernization Vision
and Strategy
The Information Technology Modernization Vision and Strategy plans for a phased replacement
of IRS computer systems to better support today’s tax laws, policies, and taxpayer needs. The
CADE is helping the IRS realize its Information Technology Modernization Vision and Strategy.

The IRS successfully hired 25 computer programmers to supplement the PRIME
contractor’s efforts
Starting with Release 1, the IRS decided the PRIME contractor should use the C++ programming
language. The PRIME contractor has had difficulty retaining qualified C++ computer
programmers needed to program the CADE, in part due to the extensive overtime the
programmers were required to work.
The IRS addressed this problem by hiring 25 C++ computer programmers to work with the
contractor in a codevelopment process. The newly hired computer programmers reported to
work on September 5, 2006, and formal training started the following week. By
October 16, 2006, the new computer programmers were divided into five teams and assimilated
into existing work groups at the PRIME contractor’s New Carrollton, Maryland, facilities. They
gained experience about the Project by performing less complex programming assignments on
Release 2.2. They are now scheduled to assist with more complex programming assignments on
the Release 3 physical design.

The Project has successfully aligned its multiyear release plan with the Accounts
Management Services project
Using the Information Technology Modernization Vision and Strategy as a model, the Project
team along with the Wage and Investment Division Business Modernization Office has
successfully aligned its multiyear release plan with the Accounts Management Services project.
This alignment helps assure the two projects support each other’s capabilities. The Accounts
Management Services project will improve the CADE’s ability to process taxpayer address
change requests and tax return math error notices.




                                                                                         Page 2
                           Vital Decisions Must Be Made to Ensure Successful
                      Implementation of Customer Account Data Engine Capabilities



CADE Release 2.1 began processing tax returns on September 5, 2006
Beginning with the development of Release 1.3, the IRS and the PRIME contractor planned to
use a biannual release approach with one release in June of each year that would add complex
capabilities and one release in January of each year that would include filing season updates.
Appendix V, Table 3, presents the revised CADE biannual release schedule including return
types and account characteristics for each release.
A biannual release (Release 2.1) was delivered on September 5, 2006. In addition to processing
U.S. Individual Income Tax Returns (Form 1040 and 1040A) with no schedules, Release 2.1
added several new schedules to the CADE, including Form 1040 Itemized Deductions
(Schedule A), Form 1040 Interest and Ordinary Dividends (Schedule B), and Form 1040 Credit
for the Elderly or the Disabled (Schedule R). The Release also processes Interest and Ordinary
Dividends for Form 1040A Filers (Schedule 1) and Credit for the Elderly or the Disabled for
Form 1040A Filers (Schedule 3), adds the Head of Household filing status (without dependents),
and expands name and address change capabilities.
As of December 23, 2006, the CADE had processed more than 7.3 million tax returns and
generated more than $3.4 billon in refunds. This is a significant increase over the approximately
1.4 million tax returns processed in Calendar Year 2005 that generated refunds totaling more
than $427 million.

Plans for Deploying Customer Account Data Engine Releases Have
Not Been Achieved
The IRS used task orders to require the PRIME contractor to deliver Release 2.1 by
August 31, 2006, and Release 2.2 by December 31, 2006. In June 2006, the IRS and the PRIME
contractor agreed to a task order modification2 to revise the Release 2 scope and obligate
funding. The Release 2 requirements were revised based on the contracted goal of processing
33 million tax returns during the 2007 Filing Season and did not consider the complexity of the
programming involved for processing these returns.
The Enterprise Life Cycle3 is the internal control approach            The Enterprise Life Cycle
                                                                         provides the direction,
used by the IRS to manage and effect business change. It
                                                                        processes, and tools for
consists of eight phases including the Preliminary Design         accomplishing business change
Phase. A phase is a broad segment of work that encompasses            in a repeatable and reliable
activities of similar scope, nature, and detail, and provides a                 manner.
natural breakpoint in the life cycle. The Customer Technical
Review and the Life Cycle Stage Review are internal control points within the Preliminary
Design Phase that ensure all release requirements are properly identified.

2
    Task Order 123, Modification 29.
3
    Appendix VI presents an overview of the Enterprise Life Cycle.
                                                                                           Page 3
                          Vital Decisions Must Be Made to Ensure Successful
                     Implementation of Customer Account Data Engine Capabilities



A Customer Technical Review is performed by IRS stakeholders to review selected technical
and business products created by a project. The purpose of the review is to obtain early and
continuous stakeholder feedback, identify and resolve
issues and actions required to gain stakeholder approval,      A Customer Technical Review
and provide a forum to resolve conflicting comments            deals with a single or small set
between the stakeholders and developer on the products        of related work products while a
produced.                                                      Life Cycle Stage Review deals
                                                                            with all work products that
A Life Cycle Stage Review provides a broad look across                        comprise the solution.
the technical and business aspects of a project’s
development to verify it is complete, consistent, and
correct given its point in the life cycle. Results of the Life Cycle Stage Review are used as input
for the decision to move the project from the design phase to the development phase.

CADE Release 2 was over budget, requirements were deferred from both biannual
releases (Release 2.1 and 2.2), and target deployment dates were not met
Release 2.1 was approximately $4.2 million (15 percent)4 over budget and was not within the
acceptable 10 percent budget variance tolerance.5 Further, the IRS deferred several Release 2.1
and 2.2 requirements to later releases. Table 1 presents the deferred requirements and the related
releases and major release segments.
                        Table 1: CADE Release 2 Deferred Requirements
                 Requirement                     Release 2.1                    Release 2.2
           Spousal Cross-Reference          Moved to Release 2.2                      -
              Married Taxpayers             Moved to Release 2.2                      -
                  Dependents                Moved to Release 2.2                      -
            Continuous Processing         Moved to Future Release                     -
               Naming Standards           Moved to Future Release                     -
                 Split Refunds                         -                   Moved to Release 3
               Naming Standards                        -                Moved to Future Release
          Source: The CADE Weekly Task Review.

The delivery of Release 2.2 was postponed from the start of the 2007 Filing Season,
January 16, 2007, until March 6, 2007, so the IRS and the PRIME contractor could make


4
    CADE Release 2.1 was budgeted to use $27,049,000 and required $31,239,000 for completion.
5
    Business Systems Modernization 2006 and 2007 Expenditure Plan, dated August 2006.
                                                                                                     Page 4
                       Vital Decisions Must Be Made to Ensure Successful
                  Implementation of Customer Account Data Engine Capabilities



required performance improvements and complete filing season updates. During this period, tax
returns eligible for processing by the CADE were sent back to the IRS’ current processing
system (the Individual Master File). Therefore, approximately 17.2 million potential CADE tax
returns filed through February 16, 2007, did not have an opportunity for processing by the
CADE. As a result, Release 2.2 will not process its goal of 33 million tax returns, and a
significant number of taxpayers will not receive the benefits of expedited refunds.

The Project continues to follow a pattern of deferring requirements and missing
target release deployment dates
During the 2006 Filing Season, the Project overcame some of the setbacks that plagued its early
development. However, a pattern of deferring Project requirements to later releases and missing
release deployment dates is continuing.
    y   The first release of the CADE was originally designed to store historical data and be
        delivered in January 2002. The IRS delivered Release 1.1 in August 2004 without the
        ability to store historical data, citing overall complexity as the reason for the deferral.
    y   Release 1.3.2 deferred requirements such as processing prior year returns and offsets to
        tax overpayments to later releases because of inadequate design, coding and unit testing
        and insufficient staffing.6
    y   Release 2.1 deferred requirements to later releases because all of the work related to the
        release requirements was not identified during the Enterprise Life Cycle Preliminary
        Design Phase of the Project.
    y   Release 2.2 delivered several requirements after the start of the 2007 Filing Season and
        will postpone the delivery of other requirements because of insufficient staffing.
The pattern of deferring requirements and missing target release deployment dates, if allowed to
continue, will undermine the long-term success of the Project. The IRS and the PRIME
contractor have deferred Project requirements and missed target dates because they agreed to an
unrealistic scope of work for Release 2, did not follow the Enterprise Life Cycle Preliminary
Design Phase guidelines, and did not assign adequate PRIME contractor staffing. We have
previously reported similar occurrences. Appendix VII presents our prior audit findings,
recommendations, and IRS corrective actions. In addition, the IRS has documented these
problems as lessons learned from prior releases; however, the problems continue to remain
unresolved.
During the Customer Technical Review and Life Cycle Stage Review processes, IRS executives
allowed the PRIME contractor to exit the Release 2.1 Preliminary Design Phase of the Project on


6
 Focusing Management Efforts on Long-Term Project Needs Will Help Development of the Customer Account Data
Engine Project (Reference Number 2006-20-076, dated June 2006).
                                                                                                  Page 5
                       Vital Decisions Must Be Made to Ensure Successful
                  Implementation of Customer Account Data Engine Capabilities



May 6, 2006, with the condition it would subsequently deliver the remaining work related to the
release requirements. The Project received a waiver from the requirement of complying with all
Enterprise Life Cycle guidance until the initiation of Release 2.
By late June 2006, indications surfaced that the revised Release 2.2 delivery date of
December 31, 2006, was in jeopardy. Development fell behind schedule by approximately
2 weeks to 3 weeks, trying to finish the logical design work that should have been completed
during the Preliminary Design Phase. The Project’s schedule could not keep pace with its plan,
which resulted in the need for another revision in August 2006. The August revision kept all
previously agreed-to requirements, postponed the planned completion date of the application
testing, but essentially left the deployment dates the same. Leaving the deployment dates intact
reduced the Release 2.2 development and testing time to 4 months; the recommended time for
development and testing is approximately 11 months.
In addition to the reduced development time, the staffing practice used by the PRIME contractor
was insufficient to deliver the scope of work contracted. The PRIME contractor’s staffing
practice did not treat each biannual release as a separate release. The practice involved
reassigning staff between releases to meet immediate needs, but the reassigned staff was not
replaced with other staff members so the planned work could be completed. We previously
reported7 the PRIME contractor did not have adequate staffing to fix the Release 1.3.1 defects,
requiring the transfer of designers and developers assigned to Release 1.3.2. The PRIME
contractor also did not have staffing available to meet the work demands for Release 1.3.2. This
pattern of not replacing transferred staff has had a cumulative effect on the timely delivery of the
contracted requirements for Release 2 and is affecting the design and development of Release 3.
The Release 3 project schedule is continuing the pattern of deferring requirements, not assigning
sufficient staffing, and postponing completion dates. Specifically, the IRS is considering
revising the Release 3 scope by deferring some requirements to Release 4. Resource
assessments show the Project was understaffed by 8 percent in January 2007. Further, the
Release 3 project schedule has been revised.

Recommendation
Recommendation 1: The Chief Information Officer should:
    •   Ensure the IRS negotiates a reasonable scope of work for future CADE release
        development that considers the amount and difficulty of the work and the filing season
        time constraints.



7
 Focusing Management Efforts on Long-Term Project Needs Will Help Development of the Customer Account Data
Engine Project (Reference Number 2006-20-076, dated June 2006).
                                                                                                  Page 6
                  Vital Decisions Must Be Made to Ensure Successful
             Implementation of Customer Account Data Engine Capabilities



•   Ensure the IRS analyzes the amount of staffing used during prior releases to help verify
    the PRIME contractor’s staffing plans are adequate to accomplish the scope of work
    projected for future project releases.
•   Ensure the Project follows Enterprise Life Cycle guidance for performing Customer
    Technical Reviews and Life Cycle Stage Reviews after completion of the design phase
    for each release and major release segment.
•   Not allow the PRIME contractor to exit the Preliminary Design Phase without identifying
    all of the work related to the release requirements.
    Management’s Response: The Chief Information Officer agreed with this
    recommendation and will ensure the IRS negotiates a reasonable scope of work for future
    CADE release development that considers the amount and difficulty of the work and the
    filing season time constraints. The Chief Information Officer has begun to address the
    cause of scope estimation problems through implementation of a formal Business
    Systems Requirements Report document using IRS processes in the Business Rules and
    Requirements Management Program Office to conduct detailed requirements elicitation.
    With these better-defined requirements early in the development life cycle, the IRS will
    be able to more effectively segment functionality into releases and major release
    segments to assure only manageable scopes of work are undertaken at Milestones 4A and
    4B. Based on having better requirements definition, the IRS was successful in putting in
    place a fixed-price contract for Release 3 development. Beginning with Release 4.0, the
    IRS will further identify, prioritize, and approve business requirements to manage scope,
    mitigate business risks, and meet business needs within an improved framework.
    The Chief Information Officer agreed that the IRS should analyze the amount of staffing
    used during prior releases to help verify the PRIME contractor’s staffing plans are
    adequate. As of April 6, 2007, the IRS has mandated that PRIME contractors provide a
    list of employees supporting CADE releases. CADE release managers review and
    analyze resources listed to ensure adequate support is provided by the contractors. This
    information is provided weekly to the CADE Program Office. If staffing issues are
    identified, they are addressed at the Weekly Task Review meetings. This applies to the
    existing CADE Cost-Plus-Fixed-Fee and Cost-Plus-Incentive-Fee task orders. As the
    IRS pursues more Firm Fixed-Price development efforts in the future, it will not have the
    same access to staff level details.
    The Chief Information Officer agreed that the Project should follow Enterprise Life
    Cycle guidance for performing Customer Technical Reviews and Life Cycle Stage
    Reviews after completion of the design phase for each release and major release segment.
    As the complexity of projects has increased, and as the IRS gains more experience in
    managing large complex development efforts, it has found that appropriately tailoring the
    Enterprise Life Cycle to ensure the effective use of contractor resources is critical to

                                                                                       Page 7
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities



       delivering within cost and schedule parameters. This tailoring aligns with the current
       Enterprise Life Cycle methodology.
       Finally, the Chief Information Officer agreed to not allow the PRIME contractor to exit
       the Preliminary Design Phase without identifying all of the work related to the release
       requirements. The IRS will identify all work related to a release before exiting the
       Preliminary Design Phase. It is also tailoring the Enterprise Life Cycle to align with best
       practices to ensure that project continuity is not lost; specifically, when low-risk activities
       can be implemented in parallel with Enterprise Life Cycle approvals. As mentioned in a
       prior corrective action, the IRS will ensure the scope and requirements for a release are
       fully understood so that it will be possible to segment work into distinct builds or
       subreleases as it continues to mature the development process for the CADE in
       accordance with the Enterprise Life Cycle guidance. Each of the builds or subreleases
       for new CADE functionality will complete logical and physical design before
       development.

The Approach Taken to Implement the Architectural Design Will Not
Support Customer Account Data Engine Project Long-Term Goals and
Objectives
As discussed previously, the Enterprise Life Cycle is the internal control approach used by the
IRS to manage and effect business change. The Enterprise Life Cycle is made up of layers,
phases, and stages. A phase is a broad segment of work that encompasses activities of similar
scope, nature, and detail and provides a natural breakpoint in the life cycle. Two phases included
in the Enterprise Life Cycle are the Domain Architecture Phase and the Preliminary Design
Phase. Several stages are used to monitor the work in these phases, including:
   •   The Business System Architecture Stage, which has the purposes to develop a system
       architecture that packages requirements into deliverable components to provide the
       guiding structure for achieving the enterprise goal.
   •   The Application Requirements Stage, which has a purpose to develop a set of software
       requirements that follow the design of the system architecture and develop the software
       applications to meet this design.
The CADE Risk Management Plan is another control requiring the Project to use an organized,
systematic decision-making process to identify, analyze, plan, track, control, communicate,
document, and resolve risks and issues so the likelihood of achieving Business Systems
Modernization Program goals is increased.
The approach taken to implement the CADE architectural design will not support the Project’s
long-term goals and objectives. While the CADE is being phased in over multiple years and


                                                                                               Page 8
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities



processing increasingly more complex tax returns, the IRS has not completed addressing the
following issues:
   •   Storing Historical Data – As previously discussed, the Project planned to build a
       database in 2002 to store historical account data as part of Release 1. This requirement
       was deferred because of the complexity of the task and its necessity was not immediate to
       releases that did not require reference to these data. Currently, the CADE does not store
       historical taxpayer account data. It only stores the taxpayer account data used in
       processing the current year returns. The IRS indicated it will develop a plan to use
       historical data when Release 4 is being developed.
   •   Implementing Essential Processing Requirements – Similar to the historical data issue,
       the Project has deferred essential processing requirements from the January 2002
       Release 1 plans. These requirements were deferred because of the focus on delivering
       processing requirements to meet immediate release needs. For example, the CADE
       cannot process prior tax year returns for taxpayer accounts currently residing on the
       CADE database. Future plans (i.e., the CADE Independent Requirements Project) call
       for the development and implementation of this and six other essential requirements that
       include processing overpayments and validating outstanding balances. These
       requirements are planned for development and implementation concurrently with
       Release 3.
   •   Improving Daily Processing Routines – The smallest unit of work performed by the
       CADE is the daily processing cycle, and each daily processing cycle must be successfully
       completed in 1 day before the next daily cycle can do any significant amount of
       processing. As release complexity increases, the CADE’s ability to complete each daily
       processing cycle in 1 day will be affected. While several alternative approaches have
       been considered and an additional day (Sunday) has been added to the processing cycle
       on an as-needed basis, there are no long-term plans currently in place to improve the
       efficiency of the daily processing cycle.
The Project team identified these deferred essential processing requirements as conditions that
need resolution. The Enterprise Life Cycle Business System Architecture Stage and Application
Requirements Stage for the Project included the requirements for historical data storage
processes and daily processing routines. The IRS Risk Management process identified the need
to implement the deferred processing requirements.
The Customer Technical Review compares project design products with the project’s
architecture and requirements. The Enterprise Life Cycle states (1) the Customer Technical
Review can provide benefits with early identification of variances from the architecture and
requirements and (2) when real problems are not exposed until late in the project (i.e., during
testing), they are difficult and costly to resolve.


                                                                                            Page 9
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities



Unless sufficient time is provided to deliver the capabilities needed to support the long-term
objectives and goals of the release scope, the CADE will be unable to process tax returns for all
individual and business taxpayers as planned. Additionally, the longer these decisions are
delayed, the greater the risk of costly rework.

Recommendation
Recommendation 2: The Chief Information Officer should limit future Project delivery to
essential capabilities and filing season updates. Further, the Chief Information Officer should
consider postponing new capabilities until key business decisions are made and the following
requirements are implemented:
   •   Historical data are stored.
   •   Requirements identified by the CADE Independent Requirements Project are developed
       and implemented.
   •   Daily processing routines are improved.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and has tasks underway to develop the historical data store and the
       requirements that are captured in the CADE Independent Requirements Project, and has
       also undertaken efforts to see what improvements can be made to daily processing. The
       scope of Releases 3.1 and 3.2 has been fully defined and work is well underway under a
       fixed-price arrangement with the PRIME contractor. As part of scoping Releases 3.1 and
       3.2, many new capabilities were deferred to ensure the above noted infrastructure
       improvements and previously deferred requirements were incorporated; however, some
       new capabilities have been included in Release 3.2. The IRS will continue to carefully
       plan and approve increments of new functionality to include in future CADE releases.

Implementing Current Technology to Support the Customer Account
Data Engine’s Ultimate Computer Processing Demands May Be Cost
Prohibitive
The IRS has several directives to guide capacity testing for its systems including:
   •   The Internal Revenue Manual, which requires capacity management planning and testing
       by assessing the capacity requirements of new systems to determine whether
       infrastructure needs (hardware, system software, network, etc.) can be met by current
       infrastructure components, whether procurements are necessary to supplement capacity,
       or whether design modifications are necessary to reduce capacity requirements.



                                                                                          Page 10
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities



   •   The Manager’s Guide to the Enterprise Life Cycle, which states the Integration Phase
       may include testing system performance through a realistic simulation of peak volumes.
   •   The Enterprise Life Cycle Supplement entitled “Enterprise Integration and Test,” which
       requires capacity testing.
The Project is currently building a computer system large enough to process the highest daily
volume of tax returns received by the IRS, although this processing capacity is needed for only a
few days each year. Alternative design approaches, such as obtaining additional computer
resources on an interim basis or delaying the processing of some tax return types (e.g., deferring
“no refund” type returns until the next day) on extremely high-volume processing days, have
been considered but have not been thoroughly developed because of the focus on delivering
current Project releases. Other potential internal solutions that have been considered to address
the short-term performance demands include distributing CADE peak workload demands
between the two Enterprise Computing Centers at Martinsburg, West Virginia, and Memphis,
Tennessee, and prioritizing computer processing time among the various modernization
applications to manage peak workload demands.
During our meetings with the Project team, we discussed other potential solutions for increasing
computer processing capacity, including:
   •   Use of supercomputing centers with vast computing resources by obtaining limited
       access to their supercomputers. Examples of supercomputing centers include the
       Los Alamos National Laboratory, National Aeronautics and Space Administration Ames
       Research Center, National Security Agency, and Pittsburgh Supercomputing Center.
   •   Use of outside vendors that offer open access, computing time, and on-demand programs
       to provide peak workload demand assistance on an as-needed basis.
   •   Discussions with other Federal Government agencies with similarly sized programs to
       obtain performance-related lessons-learned information.
One aspect of processing performance is related to the storage and retrieval of CADE data that
are currently stored on magnetic tape cartridges. The current magnetic tape storage pool
available to the CADE at the Enterprise Computing Center in Martinsburg, West Virginia, is
limited in size and will be challenged to handle future needs. The CADE currently has access to
40 terabytes of storage. Future plans call for the purchase of an additional 50 terabytes of
storage using direct access storage devices. In early February 2007, Release 2.2 experienced
processing problems related to the tape storage pool.
Another aspect of processing performance is the number of business rules that can be efficiently
processed. Processing performance can be measured in millions of instructions per second
(MIPS). To ensure adequate computer processing capacity was available for the 2007 Filing
Season, the IRS purchased an additional 550 MIPS at a cost of approximately $3.4 million.
Currently, the hardware and software cost for 1 MIPS is about $5,000, with an additional
                                                                                          Page 11
                       Vital Decisions Must Be Made to Ensure Successful
                  Implementation of Customer Account Data Engine Capabilities



estimated annual maintenance cost of about $1,200. Assuming the Release 3 ratio of 2 MIPS to
3 business rules remains constant, the CADE will require approximately 25,000 MIPS by 2012.
This also assumes the ratio will not increase, even though business rule volume and complexity
will increase and the volume of tax returns will rise from 50 million to more than 135 million.
Table 2 presents estimated business rules and tax return volumes by year and release.
        Table 2: Business Rules and Tax Return Volume by Year and Release
                2006         2007         2008           2009       2010        2011      2012
              Release      Release      Release      Release      Release      Release   Release
                 1            2            3            4            5            6         7
 Business        624         2,066        6,078          15,882    31,832       34,316    38,285
  Rules
  Tax         7 million    33 million   50 million   70 million   90 million    110       135
 Return                                                                        million   million
 Volume
Source: The IRS Applications Development organization.

It will cost more than $226.5 million (which includes maintenance costs of about $98.3 million)
to fund the MIPS required to support the CADE processing through 2012. Further, this
projection includes only individual taxpayers and not business taxpayers.
The Project has recognized the need to meet capacity requirements for current processing.
Although it has performed annual capacity assessments for current and subsequent year demand
to support CADE releases, it has not thoroughly developed the estimated long-term needs as
prescribed by the Enterprise Life Cycle and the Internal Revenue Manual.
The IRS needs to decide whether to reduce CADE capabilities because of capacity constraints or
to continue development with the hope of using new technology or alternative resources
(e.g., supercomputer centers, outside vendors) to satisfy the computer processing demands. If
new technology does not emerge to more efficiently perform computer processing, CADE costs
may be prohibitive.

Recommendation
Recommendation 3: The Chief Information Officer should partner with the Wage and
Investment Division Business Modernization Office to jointly review alternative design solutions
and identify process improvements for the Project. Alternative design solutions, such as
delaying processing of some tax returns on extremely high-volume processing days or obtaining
additional computer resources on an interim basis, need to be explored to ensure the CADE can
operate as efficiently and effectively as possible.

                                                                                                   Page 12
              Vital Decisions Must Be Made to Ensure Successful
         Implementation of Customer Account Data Engine Capabilities



Management’s Response: The Chief Information Officer agreed with this
recommendation and is actively engaged and continues to ensure the CADE Program
Office and Wage and Investment Division Business Modernization Office jointly review
design solutions and identify process improvements for the Project. The Chief
Information Officer will continue to work with the Submission Processing organization
to identify alternatives for processing tax returns on high volume days, and the Wage and
Investment Division Business Modernization Office will continue to work along with the
Enterprise Computing Center to implement Saturday tax return processing during the
filing season. This approach avoids a backlog by allowing weekend volume to be spread
across CADE cycles. These procedures were first utilized for the 2006 Filing Season and
continued in the 2007 Filing Season, and are outlined in memorandums signed by the
Deputy Director, Submission Processing, dated January 26, 2006, and January 18, 2007,
respectively. The IRS remains committed to ensuring all taxpayers processed by the
CADE receive the same advantages. Additionally, the Submission Processing
organization continues to evaluate potential automated routines for returns initiated
through the Electronic Filing System for processing in the CADE to further balance
workload throughout the day. The IRS will also continue to explore alternative solutions
for successful implementation. In support of this issue, a joint technical assessment team
is being formed to identify CADE technical constraints and improvement opportunities
with regard to the architecture, performance, and software quality. The IRS expects to
have preliminary outcomes from this effort by June 1, 2008.




                                                                                  Page 13
                           Vital Decisions Must Be Made to Ensure Successful
                      Implementation of Customer Account Data Engine Capabilities



                                                                                        Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to review current CADE Release1 2 activities for
potential issues affecting the delivery of new capabilities planned for the 2007 Filing Season and
reassess long-term CADE Project goals and objectives in light of the growing complexity and
enormity of the Project’s tasks. This review was part of our Fiscal Year 2006 audit plan for
reviews of the IRS’ Business Systems Modernization efforts.
To accomplish our objective, we identified the internal control systems used as guidance for the
Project’s development. These systems include the Enterprise Life Cycle2 and the Internal
Revenue Manual. We assessed the adequacy of Project development activities in relation to the
guidance provided by these internal control systems. We also assessed the adequacy of Project
development and program plans by reviewing Business Systems Modernization Program and
project documentation and data provided by the IRS and by interviewing personnel in the
Applications Development and Enterprise Services organizations. Specifically, we:
I.         Determined whether the Applications Development organization and the PRIME
           contractor delivered all agreed-to Release 2.1 and 2.2 requirements.
           A. Reviewed CADE task order modifications identifying the requirements included in
              Release 2 and determined the adequacy of documentation tracing business rules to
              project requirements.
           B. Reviewed documentation identifying the Release 2 staffing levels to determine the
              adequacy of resources assigned to meet delivery plans.
           C. Reviewed the processes implemented for Release 2 to improve the design quality,
              computer code development, and application testing over the work performed for
              Release 1.3.
II.        Assessed the IRS’ ability to successfully realize the long-term Project goal of retiring the
           Individual Master File in 2012.
           A. Reviewed the CADE Data Architecture and Analysis Study to assess plans for
              long-term logical and physical designs, the process for loading and storing historical
              data, and transforming the CADE from a batch processing operation to a real-time
              processing operation.


1
    See Appendix VIII for a glossary of terms.
2
    Appendix VI presents an overview of the Enterprise Life Cycle.
                                                                                               Page 14
              Vital Decisions Must Be Made to Ensure Successful
         Implementation of Customer Account Data Engine Capabilities



B. Reviewed the Information Technology Modernization Vision and Strategy concepts
   and assessed the effect on the Project’s long-term program goals and objectives.
C. Reviewed the CADE’s data storage and processing requirements estimates to
   determine the resources and associated costs the IRS needs to commit to process and
   manage taxpayer accounts.
   1. Reviewed the estimates of processing capabilities in measurement terms of MIPS
      and the related costs to provide necessary MIPS capacity to meet processing
      requirements.
   2. Reviewed estimates of the number of business rules to estimate the MIPS and
      related costs necessary to support the CADE release schedule in 2012.
D. Reviewed the Project’s current status and program goals and objectives to identify
   potential alternatives in system development and release plans.




                                                                                 Page 15
                    Vital Decisions Must Be Made to Ensure Successful
               Implementation of Customer Account Data Engine Capabilities



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Mark K. Carder, Senior Auditor
Bruce Polidori, Senior Auditor




                                                                                     Page 16
                    Vital Decisions Must Be Made to Ensure Successful
               Implementation of Customer Account Data Engine Capabilities



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 17
                            Vital Decisions Must Be Made to Ensure Successful
                       Implementation of Customer Account Data Engine Capabilities



                                                                                            Appendix IV

            Customer Account Data Engine Project Costs

                      Table 1: Project Task Order1 Costs Through Release 2
     Task Order Number                       Period of Performance                          Cost
              0019              1999 – 2000 (specific dates not available)                         $2,166,234
              0037              April 24, 2000 – August 31, 2000                                   $3,011,000
              0054              September 1, 2000 – April 30, 2001                              $13,971,165
              0069              June 1, 2001 – August 31, 2001                                     $5,700,000
              0071              May 1, 2001 – June 30, 2001                                        $1,534,012
              0073              September 1, 2001 – August 31, 2004                             $60,458,154
              0123              October 1, 2004 – June 8, 2006                                  $78,862,590
                                                                                        Total $165,703,155
Source: CADE contract task orders from the IRS Procurement Office.

              Table 2: Estimated Project Costs and Schedule Through Release 2
               Release Project Phases                     Completed/Scheduled            Cost/Estimate
 Milestone 1                                          December 31, 1999                            $5,116,000
 Milestones 2 and 3                                   June 30, 2001                             $19,267,000
 Milestone 4                                          July 30, 2004                             $58,838,000
 2003/2004 Filing Seasons (Release 1.1)               August 5, 2004                            $24,550,000
 2005 Filing Season (Release 1.2)                     December 31, 2004                         $23,403,000
 Milestone 5                                          June 30, 2005                             $17,450,000
 2006 Filing Season (Release 1.3)                     December 31, 2005                         $28,300,000
 2007 Filing Season (Release 2)                       Mid-May 2007 (estimate)                   $56,959,000

                                                                                        Total $233,883,000

Source: Business Systems Modernization Expenditure Plans for Fiscal Years 2004, 2005, 2006, and 2007.




 1
     See Appendix VIII for a glossary of terms.
                                                                                                        Page 18
                         Vital Decisions Must Be Made to Ensure Successful
                    Implementation of Customer Account Data Engine Capabilities



                   Table 3: Project Cost and Schedule Variance Summary
                                                                                        Schedule        Schedule
     Release        Milestone        Cost Variance     Cost Variance Percentage         Variance        Variance
                                                                                      (in months)     (percentage)
       1          Operations and       $7,510,000                 43%                     0               0%
                  Maintenance2
       1.2         2005 Filing          $10,000                   0%                      0               0%
                    Season3
      1.3.1        2006 Filing            $668                    3%                      2              20%
                     Season
      1.3.2        2006 Filing             $66                    0%                      0               0%
                    Season4
       2.1      Mid-year Release         $4,190                   15%                     0               0%
       2.2         2007 Filing           $1,225                   5%                      2              22%
                     Season

  Program             2005             $1,935,000                 24%                  Not              Not
 Management       Calendar Year                                                      Applicable       Applicable
                  Level of Effort

                      2006                 $0                     0%                   Not              Not
                  Calendar Year                                                      Applicable       Applicable
                  Level of Effort
Source: Business Systems Modernization Expenditure Plans for Fiscal Years 2004, 2005, 2006, and 2007 and the
IRS.




 2
   CADE Release 1 (Operations and Maintenance) was initially referred to as “CADE Release 1, Milestone 5” in the
 Business Systems Modernization Expenditure Plan.
 3
   CADE Release 1.2 was initially referred to as “CADE Filing Season 2005” in the Business Systems Modernization
 Expenditure Plan. The IRS did not provide cost and schedule data for this release in subsequent Expenditure Plans.
 4
   CADE Releases 1.3.1 and 1.3.2 were initially combined and referred to as “CADE Filing Season 2006” in the
 Business Systems Modernization Expenditure Plan.
                                                                                                         Page 19
                                                     Vital Decisions Must Be Made to Ensure Successful
                                                Implementation of Customer Account Data Engine Capabilities



                                                                                                                                     Appendix V

                   Customer Account Data Engine Release Schedules

Table 1 presents the historical development of the CADE and the original release1 schedule.
The names of the tax forms and schedules planned for CADE processing are presented below
Table 1. All tax forms and schedules listed in Tables 1 and 2 are available at the IRS web site
(IRS.gov).
                                                         Table 1: Original CADE Release Schedule
                                     RELEASE         RELEASE        RELEASE         RELEASE         RELEASE         RELEASE           RELEASE         RELEASE
                                      1.1/1.2          1.3.1          1.3.2           2.1             2.2              3                 4               5

                                     Form            Release        Release 1.3.1   Form           Release 2.1      All Form         All Form 1040    All remaining
                                     1040EZ;         1.1/1.2 plus   plus            1040EZ;        plus             1040 family      family and       individual tax
                                     Single filing   address        Forms 1040      Form 1040      Form 1040        and              supporting       returns
                                     status;         change         and 1040A       Schedules A,   Schedules C,     supporting       forms with an
                                     refund or                      with no         B, and R;      D, E, F, and H   forms            Employer
                                     even-balance                   schedules;      Form 1040A     without an       without an       Identification
                                     returns                        Forms 4868      Schedules 1    Employer         Employer         Number;
Tax Return Types




                                                                    and 2688;       and 3          Identification   Identification   Forms 941,
                                                                    prior year                     Number and       Number;          940, and 720;
                                                                    returns                        their            Form 1040A       payroll,
                                                                    (2003+);                       supporting       Schedule 2;      unemployment,
                                                                    limited                        schedules        refund,          and excise
                                                                    name-change                                     deceased         returns for
                                                                    returns                                         refund, or       Form 1040
                                                                                                                    fully paid       taxpayers;
                                                                                                                    returns          refund,
                                                                                                                                     fully paid,
                                                                                                                                     balance-due,
                                                                                                                                     and
                                                                                                                                     even-balance
                                                                                                                                     returns
                                     Single          Single         Single          Single;        Single;          All              All              All
                                                                                    Married;       Married; Head    (including
Status
Filing




                                                                                    Head of        of Household,    Head of
                                                                                    Household,     limited          Household)
                                                                                    limited        dependents
                                                                                    dependents
                                     No account      No account     No account      No account     Married once;    No open          Power of         All accounts
                   Characteristics




                                     issues (open    issues (open   issues (open    issues (open   no open          account          Attorney;        not included
Account




                                     or closed)      or closed)     or closed)      or closed)     account issues   issues;          Centralized      in previous
                                                                                                                    Earned           Authorization    Releases
                                                                                                                    Income Tax       File; no open
                                                                                                                    Credit           account issues




1
      See Appendix VIII for a glossary of terms.
                                                                                                                                                 Page 20
                          Vital Decisions Must Be Made to Ensure Successful
                     Implementation of Customer Account Data Engine Capabilities



              RELEASE        RELEASE      RELEASE        RELEASE       RELEASE        RELEASE        RELEASE         RELEASE
               1.1/1.2         1.3.1        1.3.2          2.1           2.2             3              4               5

 Number of
  Returns
  Original     3 million                                                35 million     76 million    110 million     122 million
  Estimate
  Revised
 Estimate -    2 million      2 million      To be          To be       33 million     50 million    80 million      140 million
                                          determined     determined
 February
    2005
 Estimated
 Delivery:
   As of      January 2002                               August 2002                   July 2003     July 2004        July 2005
 April 2000
   As of                                                    To be         To be          To be          To be           To be
  January     August 2004                 January 2006   determined    determined     determined     determined      determined
    2004
   As of                                                                                 To be          To be           To be
 December     August 2004    July 2005    January 2006    July 2006    January 2007   determined     determined      determined
   2004
   As of
 February        August      July 2005    January 2006    July 2006    January 2007     Releases      Releases        July 2009
   2005          2004/                                                                   3.1/3.2       4.1/4.2
              January 2005                                                             July 2007/    July 2008/
                                                                                      January 2008    January
                                                                                                        2009
Source: CADE Individual Master File Release Content Master Plan Updates, dated June 5, 2003, and
February 11, 2005.
 Form 720 – Quarterly Federal Excise Tax Return
 Form 940 – Employer’s Annual Federal Unemployment (FUTA) Tax Return
 Form 941 – Employer’s QUARTERLY Federal Tax Return
 Form 1040 – U.S. Individual Income Tax Return
 Form 1040A – U.S. Individual Income Tax Return
 Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
 Form 2688 – Application for Additional Extension of Time To File U.S. Individual Income Tax Return
 Form 4868 – Application for Automatic Extension of Time To File U.S. Individual Income Tax Return
 Schedule A (Form 1040) – Itemized Deductions
 Schedule B (Form 1040) – Interest and Ordinary Dividends
 Schedule C (Form 1040) – Profit or Loss From Business
 Schedule D (Form 1040) – Capital Gains and Losses
 Schedule E (Form 1040) – Supplemental Income and Loss
 Schedule F (Form 1040) – Profit or Loss From Farming
 Schedule H (Form 1040) – Household Employment Taxes
 Schedule R (Form 1040) – Credit for the Elderly or the Disabled
 Schedule 1 (Form 1040A) – Interest and Ordinary Dividends for Form 1040A Filers
 Schedule 2 (Form 1040A) – Child and Dependent Care Expenses for Form 1040A Filers
 Schedule 3 (Form 1040A) – Credit for the Elderly or the Disabled for Form 1040A Filers

                                                                                                                   Page 21
                                   Vital Decisions Must Be Made to Ensure Successful
                              Implementation of Customer Account Data Engine Capabilities



Table 2 presents the first biannual release schedule. The names of additional tax forms and
schedules planned for CADE processing are presented below Table 2.
                                  Table 2: First Biannual CADE Release Schedule
                       2004           2005           2006            2007             2008             2009                2010          2011/2012
                   RELEASE         RELEASE       RELEASE         RELEASE          RELEASE          RELEASE            RELEASE           RELEASE
January              1.1              1.2          1.3.2           2.2              3.2              4.2                5.2                6.2
and                                  1.3.1          2.1            3.1              4.1              5.1                6.1              7.1/7.2
June
                   Form 1040EZ    1.2 & 1.3.1    1.3.2           2.2              3.2             4.2                5.2                6.2
                                  Form 1040EZ    Forms 1040      Form 1040A       Form 1040       Balance-due        Form 1040          Additional
                                                 and 1040A,      Schedules 1      decedent        returns; math      Schedules C, E,    Form 1040
                                  (1.3.1 only)   no schedules    and 3;           returns;        error returns;     F with an          schedules and
                                  Address                        Form 1040        Form 1040       Form 6251;         Employer           forms (to be
                                  changes                        Schedules A,     fully paid      additional         Identification     determined)
                                                                 B, D, and R      with            Form 1040          Number and
                                                                 and              remittance;     schedules and      supporting         7.2
                                                                 supporting       Form 1040       forms (to be       schedules          Form
                                                                 forms;           with credit     determined)        including          1040NR;
                                                                 Form 1040        elect;                             Schedule SE;       Form 1040
                                                                 Schedules C,     Form 4868                          Forms 940 and      Puerto Rico
                                                                 F, and E         with                               720 payroll,       Resident;
Tax Return Types




                                                                 without an       remittance;                        unemployment,      Form 1040
                                                                 Employer         Form 4868                          and excise tax     Self-
                                                                 Identification   with no                            returns for        Employed;
                                                                 Number and       remittance;                        Form 1040          Form 1040
                                                                 supporting       additional                         self-employed      Departing
                                                                 forms            Form 1040                          filers;            Alien; foreign
                                                                 including        schedules and                      additional         address;
                                                                 Schedule SE;     forms (to be                       Form 1040          additional
                                                                 limited name     determined);                       schedules and      Form 1040
                                                                 change on        Form                               forms (to be       schedules and
                                                                 return           1040-ES;                           determined);       forms (to be
                                                                                  Form 1040-V;                       delinquent         determined)
                                                                                  Form 1040X;                        returns
                                                                                  Form 1040A
                                                                                  Schedule 2;
                                                                                  Form 1040
                                                                                  Schedule EIC
                                                                                  and
                                                                                  supporting
                                                                                  forms
                   Single         Single         2.1             3.1              4.1             5.1                6.1                7.1
                   (never         (never         Single,         Single,          Single,         Single, Married    Single, Married    Single,
Filing Status




                   married); no   married); no   Married         Married          Married         (joint), Head of   (joint), Head of   Married
                   dependents     dependents     (joint), Head   (joint), Head    (joint), Head   Household,         Household,         (joint), Head
                                                 of Household,   of Household,    of Household,   Married            Married            of Household,
                                                 Married         Married          Married         (separate),        (separate),        Married
                                                 (separate)      (separate),      (separate),     Surviving          Surviving          (separate),
                                                                 Surviving        Surviving       Spouse             Spouse             Surviving
                                                                 Spouse           Spouse                                                Spouse




                                                                                                                                Page 22
                                             Vital Decisions Must Be Made to Ensure Successful
                                        Implementation of Customer Account Data Engine Capabilities



                               2004             2005           2006           2007             2008             2009             2010          2011/2012
                           RELEASE          RELEASE        RELEASE        RELEASE          RELEASE          RELEASE          RELEASE          RELEASE
 January                     1.1               1.2           1.3.2          2.2              3.2              4.2              5.2               6.2
 and                                          1.3.1           2.1           3.1              4.1              5.1              6.1             7.1/7.2
 June
                           Refund or        Refund or      Refund or      2.2              3.2              No open          Power of         All accounts
                           even-balance     even-balance   even-balance   Married once;    No open          account          Attorney;        not included
                           returns; no      returns; no    returns; no    no open          account          issues; Earned   Centralized      in previous
                           account issues   dependents;    dependents;    account issues   issues.          Income Tax       Authorization    Releases
                           (open or         no account     no account     3.1              Earned           Credit           File;
 Account Characteristics




                           closed)          issues (open   issues (open   No open          Income Tax                        no open
                                            or closed)     or closed)     account          Credit                            account issues
                                                                          issues;          4.1
                                                                          Earned           Power of
                                                                          Income Tax       Attorney;
                                                                          Credit           Centralized
                                                                                           Authorization
                                                                                           File;
                                                                                           no open
                                                                                           account
                                                                                           issues; Earned
                                                                                           Income Tax
                                                                                           Credit
                           Not              Actual         Actual         2.2              3.2              4.2              5.2              6.2
 Number of Returns




                           applicable       1,423,517      7,372,572      33 million       50 million       70 million       90 million       110 million
    Estimated




                                                                                                                                              7.2
                                                                                                                                              135 million




Source: Customer Relationship Management Executive Steering Committee, approved October 18, 2005.
 Form 1040-ES – Estimated Tax for Individuals
 Form 1040NR – U.S. Nonresident Alien Income Tax Return
 Form 1040-V – Payment Voucher
 Form 1040X – Amended U.S. Individual Income Tax Return
 Form 6251 – Alternative Minimum Tax–Individuals
 Schedule EIC (Form 1040 or 1040A) – Earned Income Credit
 Schedule SE (Form 1040) – Self-Employment Tax




                                                                                                                                          Page 23
                                     Vital Decisions Must Be Made to Ensure Successful
                                Implementation of Customer Account Data Engine Capabilities



Table 3 presents the revised biannual release schedule as of November 16, 2006. The names of
additional tax forms and schedules planned for CADE processing are presented below Table 3.
                                 Table 3: Revised Biannual CADE Release Schedule
                         2007                  2008                  2009                 2010                  2011                 2012
January            RELEASE 2.2          RELEASE 3.2           RELEASE 4.2          RELEASE 5.2           RELEASE 6.2          RELEASE 7.2
and
June                      3.1                  4.1                   5.1                   6.1                  7.1

                   2.2                  3.2                   4.2                  5.2                   6.2                  7.2
                   Form 1040            Form 1040             Form 1040X;          None                  None                 None
                   Schedules C, F,      Descendent            Form 6251
                   and E without an     Returns;                                   6.1                   7.1
                   Employer             Form 1040 with        5.1                  Additional            Form 1040NR;
                   Identification       credit elect;         Delinquent           Form 1040             Form 1040 Puerto
                   Number and           Form 1040A            returns; Form        schedules and         Rico Resident;
                   supporting forms     Schedule 2;           1040X expanded       forms (to be          Form 1040-SS
                   including            Form 4868 with                             determined);          self-employed
Tax Return Types




                   Schedule SE;         and without                                Form 1040             Puerto Rico
                   Form 1040            remittance                                 Schedules C and F     Resident;
                   Schedule D and its                                              with an Employer      Form 1040 foreign
                   supporting forms;    4.1                                        Identification        address;
                   Form 8880            Balance-due                                Number and            additional
                                        returns; math error                        supporting            Form 1040
                   3.1                  returns                                    schedules             schedules and
                   Form 1040 fully                                                 including             forms (to be
                   paid with                                                       Schedule SE           determined);
                   remittance;                                                                           Forms 940 and
                   Form 1040-ES,                                                                         720 payroll;
                   Form 1040-V,                                                                          unemployment and
                   Schedule EIC, and                                                                     excise tax returns
                   their supporting                                                                      for Form 1040
                   forms                                                                                 self-employed
                                                                                                         filers
                   Not included in      Not included in       Not included in      Not included in       Not included in
                   plan                 plan                  plan                 plan                  plan
Status
Filing




                   2.2                  3.2                   4.2                  5.2                   6.2                  7.2
                   Clean dependents;    Deceased              None                 None                  None                 None
Characteristics




                   married filing       taxpayers; name
                   jointly and          change (last name)    5.1                  6.1                   7.1
  Account




                   separately                                 Power of             Taxpayers with a      All open issues
                   (married once)       4.1                   Attorney;            history of multiple
                                        None                  Centralized          marriages
                   3.1                                        Authorization File
                   Dependents
                   expanded




                                                                                                                                     Page 24
                                Vital Decisions Must Be Made to Ensure Successful
                           Implementation of Customer Account Data Engine Capabilities



                    2007              2008              2009              2010              2011              2012
              RELEASE 2.2        RELEASE 3.2      RELEASE 4.2       RELEASE 5.2       RELEASE 6.2       RELEASE 7.2
 January
 and                 3.1               4.1               5.1               6.1               7.1
 June
              Not included in   Not included in   Not included in   Not included in   Not included in   Not included in
  Number of
  Estimated




              plan              plan              plan              plan              plan              plan
   Returns




Source: The IRS Applications Development organization.
 Form 1040-SS – U.S. Self-Employment Tax Return (Including the Additional Child Tax Credit for
 Bona Fide Residents of Puerto Rico)
 Form 8880 – Credit for Qualified Retirement Savings Contributions




                                                                                                               Page 25
                           Vital Decisions Must Be Made to Ensure Successful
                      Implementation of Customer Account Data Engine Capabilities



                                                                                     Appendix VI

                          Enterprise Life Cycle Overview

The Enterprise Life Cycle1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
       •   Development of and conformance to an enterprise architecture.
       •   Improving business processes prior to automation.
       •   Use of prototyping and commercial software, where possible.
       •   Obtaining early benefit by implementing solutions in multiple releases.
       •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




1
    See Appendix VIII for a glossary of terms.
                                                                                          Page 26
                                              Vital Decisions Must Be Made to Ensure Successful
                                         Implementation of Customer Account Data Engine Capabilities



                                                     Figure 1: Enterprise Life Cycle Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done, but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.

                                                                                                                                                                        Page 27
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities



   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the Enterprise Life
       Cycle Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.




                                                                                             Page 28
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities



              Figure 2: Enterprise Life Cycle Phases and Milestones
                                                    General Nature                       Concluding
              Phase                                     of Work                           Milestone
 Vision and Strategy/            High-level direction setting. This is the only phase
                                                                                             0
 Enterprise Architecture Phase   for enterprise planning projects.
 Project Initiation Phase        Startup of development projects.                            1
 Domain Architecture Phase       Specification of the operating concept, requirements,
                                                                                             2
                                 and structure of the solution.
 Preliminary Design Phase        Preliminary design of all solution components.              3
 Detailed Design Phase           Detailed design of solution components.                    4A
 System Development Phase        Coding, integration, testing, and certification of
                                                                                            4B
                                 solutions.
 System Deployment Phase         Expanding availability of the solution to all target
                                 users. This is usually the last phase for development       5
                                 projects.
 Operations and Maintenance      Ongoing management of operational systems.               System
 Phase                                                                                   Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                 Page 29
                           Vital Decisions Must Be Made to Ensure Successful
                      Implementation of Customer Account Data Engine Capabilities



                                                                               Appendix VII

    Corrective Actions to Prior Audit Recommendations

Table 1 presents the findings reported by the Treasury Inspector General for Tax Administration
and the IRS’ subsequent planned corrective actions and implementation status. The report titles
are presented below Table 1.
      Table 1: Status of Treasury Inspector General for Tax Administration Report
           Findings and IRS Corrective Actions Related to the CADE Project

      Report           Finding and Recommendation              Corrective Action          Status
     Number
     and Date

2003-20-018          The Pilot Plan Needs to Include    The IRS monitors Information       Closed
                     Adequate Defect Reporting          Technology Asset Management
    November         Procedures.                        System use and requires the
      2002                                              PRIME contractor to develop
                     To ensure the defect reporting     procedures to include defect
                     databases provide reliable         report resolution. Under the draft
                     information for the pilot defect   procedures, the PRIME contractor
                     reports, the Business Systems      initiates the recommendation to
                     Modernization Office should        close in the Information
                     require the PRIME contractor1 to   Technology Asset Management
                     provide written procedures         System and the IRS is responsible
                     directing that the IRS approve     for the final closure. Those
                     defect report resolution actions   procedures are currently under
                     prior to defect report closure.    review. Approval and
                                                        distribution of the procedures is
                                                        planned for November 30, 2002.




1
    See Appendix VIII for a glossary of terms.
                                                                                         Page 30
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                 Corrective Action            Status
 Number
 and Date

2003-20-018   The Pilot Plan Needs to Include      The PRIME contractor has             Closed
              Adequate Defect Reporting            drafted procedures that document
 November
              Procedures.                          the process the IRS will use when
   2002
                                                   interfacing defect reporting
(continued)   To ensure the defect reporting       information between the
              databases provide reliable           ClearQuest® database and the
              information for the pilot defect     Information Technology Asset
              reports, the Business Systems        Management System defect
              Modernization Office should          tracking tools. These procedures
              require the PRIME contractor to      contain specific information on
              provide detailed procedures for      the reconciliation of these reports.
              reconciling defect reports in the    The procedures are currently
              ClearQuest® database and the         under review and are scheduled to
              Information Technology Asset         be approved and distributed by
              Management System.                   November 30, 2002.

2003-20-089   File and Job Names Need to Be        The Business Systems               Closed
              Compatible With Current Tax          Modernization Office agreed with
March 2003    Processing Systems.                  the recommendation and is
                                                   developing naming standards.
              The Deputy Commissioner for          Key naming standards will be
              Modernization and Chief              published and available for use by
              Information Officer need to ensure   the current processing and
              development of job and file naming   modernization environments by
              standards is expeditiously           August 1, 2003.
              completed by the IRS Enterprise
              Operations Services organization.
              The Business Systems
              Modernization Office needs to
              work with the PRIME contractor to
              ensure these naming standards are
              used in the development of future
              CADE releases and all other IRS
              modernization projects.




                                                                                     Page 31
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                    Corrective Action          Status
 Number
 and Date

2003-20-089   The Balancing, Control, and             The Business Systems              Closed
              Reconciliation Process Needs to Be      Modernization Office agreed with
March 2003
              Completed and Tested Prior to           the recommendation and will
(continued)
              Release 1.                              continue to monitor the actions
                                                      taken in balancing, control, and
              The Business Systems                    reconciliation in preparation for
              Modernization Office should             Release 1 deployment.
              monitor the completion of the
              remaining work contained in the
              detailed schedule to assess the
              progress in completing the
              balancing, control, and
              reconciliation process development.
                                                      The Business Systems               Closed
              The Business Systems
              Modernization Office should             Modernization Office will
              require the PRIME contractor to         continue to work with the PRIME
              complete the remaining work on the      contractor to ensure the remaining
              balancing, control, and                 work for the balancing, control,
              reconciliation process and fully test   and reconciliation process for
              these processes to ensure they meet     Release 1 is tested and completed.
              the design requirements.

2003-20-089   Improvements to the Computer            The Business Systems             Closed
              Handbook Will Help to Ensure an         Modernization Office agreed with
March 2003    Effective Release 1 Deployment.         the recommendation and will
                                                      work with the PRIME contractor
              The Business Systems                    to incorporate minimum
              Modernization Office should work        documentation standards and the
              with the PRIME contractor to            Documentation Task Force’s
              incorporate minimum                     findings into the CADE.
              documentation standards and the
              Documentation Task Force’s
              findings into Release 1 and future
              releases.



                                                                                       Page 32
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                  Corrective Action              Status
 Number
 and Date

2003-20-089   Improvements to the Computer         The Business Systems                   Closed
              Handbook Will Help to Ensure an      Modernization Office is working
March 2003
              Effective Release 1 Deployment.      with the PRIME contractor and
(continued)
                                                   Information Technology Services
              The Business Systems                 organization as a task group to
              Modernization Office should work define standard deliverables that
              with the PRIME contractor to         will facilitate improved transition
              incorporate these documentation      of modernization systems into the
              standards into the Enterprise Life   current processing environment.
              Cycle. Incorporating standards into The computer operations
              the Enterprise Life Cycle will       handbook subtask group is
              provide guidance in developing       working to define gaps and
              documentation for current and        requirements for standard
              future CADE releases, as well as all deliverables needed by the
              other IRS modernization projects.    Information Technology Services
                                                   organization for operations and
                                                   maintenance support.

2005-20-005   Significant Software Changes Were     The Business Systems                  Closed
              Added to CADE Release 1.1.            Modernization Office is planning
November                                            a semiannual release of the
  2004        The Chief Information Officer         CADE in July and January each
              should direct the Business Systems    year. The July delivery will
              Modernization Office to work with     involve higher risk, more
              the PRIME contractor to ensure        complex functionality, and the
              future project development changes    January delivery will include
              undergo appropriate performance       filing season changes combined
              testing, simulating high-volume       with additional changes as
              processing, before deploying the      capacity permits. Because the
              system.                               returns from earlier in the filing
                                                    season will be available for
                                                    testing, the IRS can conduct
                                                    performance testing on the July
                                                    release using the highest volume
                                                    periods. The IRS will determine
                                                    whether to conduct additional
                                                    performance testing on the
                                                                                         Page 33
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                   Corrective Action            Status
 Number
 and Date
                                                     January release based on the
2005-20-005
                                                     likelihood of the changes
 November                                            affecting performance.
   2004
(continued)
2005-20-005   The CADE Program Does Not           During Calendar Year 2004, the         Closed
              Have a Dedicated System             Business Systems Modernization
November      Architect.                          Office has been actively
  2004                                            searching for qualified
              The Chief Information Officer       engineering resources. While the
              should ensure the Business Systems Business Systems Modernization
              Modernization Office makes the      Office has had success recruiting
              system architecture resources being a few candidates (some of which
              acquired available to the CADE      are dedicated to the CADE), it is
              program on a full-time basis.       very difficult to attract qualified
                                                  individuals to work for the
                                                  Federal Government. The
                                                  Business Systems Modernization
                                                  Office’s recruiting efforts will
                                                  continue. In the interim, MITRE
                                                  Corporation employees and
                                                  members from the Enterprise
                                                  Architecture team are providing
                                                  CADE engineering and
                                                  architecture support. The PRIME
                                                  contractor is continuing to
                                                  provide full-time architecture
                                                  support to the Project.

2005-20-005   Disaster Recovery Capabilities         Disaster recovery for the CADE      Closed
              Were Not Tested Prior to CADE          needs to be periodically tested.
November      Release 1.1 Implementation.            However, it should be part of an
  2004                                               enterprise disaster recovery and
              To ensure the ability of the IRS to    testing strategy for mainframe
              restore the CADE after a disaster      computing operations and
              with the least disruption to the IRS   databases at the Enterprise
              mission, the Chief Information         Computing Center. The IRS

                                                                                        Page 34
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                   Corrective Action              Status
 Number
 and Date
              Officer needs to ensure disaster       generally deploys major
2005-20-005
              recovery capabilities for future       functionality enhancements for
 November     releases of the CADE are fully         future CADE releases in July and
   2004       tested prior to implementation.        deploys filing season changes and
(continued)                                          smaller system enhancements as
                                                     part of CADE filing season
                                                     releases in January. The Systems
                                                     Integration Enterprise
                                                     Architecture Office will work
                                                     with the Enterprise Operations
                                                     Service organization and the
                                                     Enterprise Computing Center to
                                                     ensure CADE disaster recovery
                                                     testing is included in the annual
                                                     disaster recovery testing
                                                     performed each fall. Because
                                                     most new functionality will be
                                                     deployed in the July release, the
                                                     fall testing would be timely prior
                                                     to the start of the new filing
                                                     season when the IRS will be
                                                     encountering high volumes.
              To ensure the ability of the IRS to    The Director, Enterprise              Closed
              restore the CADE after a disaster      Computing Center, will test the
              with the least disruption to the IRS   recovery and restoration of key
              mission, the Chief Information         components of CADE processing
              Officer needs to ensure all aspects    to ensure a high confidence level
              of the CADE disaster recovery          in the IRS’ ability to recover the
              capabilities are tested during the     CADE in the event of a disaster.
              Annual IRS Disaster Recovery           The CADE was part of the annual
              Test.                                  Enterprise Computing Center
                                                     Master File Disaster Recovery
                                                     test. The test was conducted
                                                     during the weeks of
                                                     October 18, 2004, and
                                                     October 25, 2004.

                                                                                          Page 35
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                  Corrective Action             Status
 Number
 and Date

2005-20-005   Improvements to the CADE              The Business Systems                 Closed
              Operator’s Guide Need to Be           Modernization Office made the
 November
              Completed.                            required changes to the
   2004
                                                    operational documentation for
(continued)   The Chief Information Officer         Release 1.1; however, the final
              should direct the Business Systems    copy with “no markup” was not
              Modernization Office to ensure        available for a few weeks
              pilot and production operational      following initial operation.
              documentation for future CADE         Going forward, the Business
              releases is reviewed, tested, and     Systems Modernization Office
              approved before both the pilot test   plans to have full documentation
              and live production are allowed to    available at implementation.
              proceed. This review should also      There are no plans for additional
              ensure the corrective action to our   CADE pilots.
              March 2003 report is incorporated
              in this review and the IRS’
              minimum documentation standards
              are completed and met in current
              and future CADE releases.

2005-20-005   Manual Processes Within CADE          Changes will be included in the      Closed
              Release 1.1 Need to Be Automated      January 2005 and July 2005
November      for Future Releases.                  deliveries addressing the
  2004                                              specified operational
              The Chief Information Officer         inefficiencies.
              should direct the Business Systems
              Modernization Office to ensure
              inefficient manual processes are
              automated in future CADE releases.

2006-20-076   The PRIME Contractor’s                Prior to Federal Government        Closed
              Inadequate Testing Resulted in        testing, the PRIME contractor
June 2006     Reduced Capabilities for CADE         will be required to provide the
              Release 1.3                           IRS with notification regarding
                                                    the completion of unit testing.
              The IRS and the PRIME contractor      The Project team has placed this
              agreed to defer eight Release 1.3.2   requirement of formal notification

                                                                                        Page 36
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                  Corrective Action               Status
 Number
 and Date
              requirements to help ensure the       regarding the completion of unit
2006-20-076
              CADE would process tax returns in     testing in the Release 2 task order
 June 2006    time for the 2006 Filing Season.      and will continue to do so in
(continued)   This occurred because the PRIME       future task orders.
              contractor did not effectively and                                           Closed
              efficiently use computer language     This corrective action will be
              (coding practices). Also, the         incorporated into the ongoing
              PRIME contractor’s unit testing did   Test Process Improvement
              not adequately identify               Project, which addresses
              programming defects.                  Corrective Actions from Treasury
                                                    Inspector General for Tax
                                                    Administration audit
                                                    System Requirements Were Not
                                                    Adequately Managed During the
                                                    Testing of the Custodial
                                                    Accounting Project (Reference
                                                    Number 2005-20-019, dated
                                                    December 2004). The Test
                                                    Process Improvement Working
                                                    Group of Stakeholders will
                                                    review existing test guidance and
                                                    make the appropriate
                                                    modification to ensure unit testing
                                                    was adequately performed by the
                                                    PRIME contractor and the
                                                    application being provided to the
                                                    IRS is ready for integration and
                                                    testing. The recommendations of
                                                    the Working Group will be vetted
                                                    through the formal IRS document
                                                    review processes, and revised
                                                    guidance will be posted to the
                                                    Process Asset Library after
                                                    executive approval.




                                                                                          Page 37
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                   Corrective Action          Status
 Number
 and Date

2006-20-076   Successful Development of the          The Modernization and              Closed
              CADE Is Dependent Upon Its             Information Technology Services
 June 2006    Ability to Serve As an Efficient and   organization will review the
(continued)   Effective Foundation for               deliverables of the CADE Data
              Modernized Systems and                 Study to serve as the basis for
              Applications                           developing data models that will
                                                     guide the logical and physical
              The CADE’s design for managing         designs for Releases 3 and 4. The
              taxpayer accounts is not fully         Modernization and Information
              developed to provide a foundation      Technology organization will
              for the IRS’ current and planned       review Modernization and Vision
              modernized systems. In                 project strategies for extracting
              April 2005, the Business Systems       operational and analytical data
              Modernization Office initiated the     and develop a high-level data
              CADE Data Architecture and             strategy for data warehousing.
              Analysis Study to enable the           Building upon the CADE data
              Project team to adapt a flexible       models and the high-level data
              release strategy by establishing a     warehousing strategy, the
              long-term plan to organize and         Modernization and Information
              manage Project data. Also, the         Technology organization will
              Modernization and Information          develop a data access strategy and
              Technology Services organization       transition plan.
              is forming the Modernization
              Vision and Strategy to establish
              project development priorities with
              the IRS business operations. The
              Strategy will provide a 5-year plan
              for developing modernization
              projects and processes. Until these
              efforts are completed, successful
              deployment of a long-term CADE
              release strategy cannot move
              forward and the future releases may
              not be deployed when planned.




                                                                                      Page 38
                   Vital Decisions Must Be Made to Ensure Successful
              Implementation of Customer Account Data Engine Capabilities




  Report       Finding and Recommendation                 Corrective Action          Status
 Number
 and Date

2006-20-076   Controls to Manage CADE             As an interim measure, a project   Closed
              Requirements Do Not Allow Ready     repository has been developed
 June 2006    Access for Project Team Use         within the CADE to track and
(continued)                                       control requirements for each
              Adequate procedures were not in     release. This vehicle will remain
              place to ensure all CADE release    in place until the implementation
              requirements are timely controlled. of the planned Enterprise Services
              As of February 23, 2006, an interim organization repository.
              process to control Release 2
              requirements was in development.
              The Business Systems
              Modernization Office will use this
              process until a vendor able to
              develop a repository meeting the
              IRS needs is identified.

2006-20-076   Defining CADE Project Release        The Projects will continue to      Closed
              Requirements Will Help Enable the    work with the IRS Procurement
June 2006     Use of Fixed-Price Contracts         Office to ensure the task orders
                                                   awarded are segregated to include
              The Business Systems                 Milestones 2, 3, and 4A as well as
              Modernization Office implemented     separate task orders for
              contracting guidance on              Milestone 4B. This separation of
              April 30, 2004 (entitled “Enabling   the Milestone 4B task order
              Fixed-Price Contracting for          positions the IRS with the ability
              Business Systems Modernization       to award firm fixed-price
              Task Orders”), which requires        contracts in accordance with the
              contracts and task orders for        firm fixed-price guidance
              Business Systems Modernization       established on April 30, 2004.
              Office acquisition projects be       This leads to more cost-effective
              fixed price at the appropriate       acquisitions, better value, and
              life cycle development phase,        greater competition. The
              unless the Federal Government’s      Acquisition Development
              interest is best served by other     organization will continue to
              contract types. The IRS is not       work with the Enterprise Services
              using fixed-price contracts for      organization to establish
              Release 1.3 development activities   requirements earlier in the life

                                                                                    Page 39
                        Vital Decisions Must Be Made to Ensure Successful
                   Implementation of Customer Account Data Engine Capabilities




    Report           Finding and Recommendation                        Corrective Action                 Status
   Number
   and Date
                   or for Release 2 design work               cycle, using the interim suite of
 2006-20-076
                   performed by the PRIME                     policies and procedures that
   June 2006       contractor. The IRS recognized             address the core disciplines of
  (continued)      challenges in working with the             requirements development and
                   PRIME contractor to use                    management. This
                   fixed-price contracts. The benefits        documentation is available to all
                   of fixed-price contracting will be         projects through the Business
                   realized only when the CADE                Rules and Requirements
                   Project requirements are fully             Management web site.
                   developed and agreed to, when
                                                              The CADE, in conjunction with
                   comprehensive estimates of effort          the IRS Contracting Officers,
                   to perform the contract tasks are
                                                              reevaluated the benefits of using a
                   made, and when meaningful                  fixed-price contract for the
                   negotiations are held.
                                                              remaining work (Milestone 4B)
                                                              on Release 2. The risk profile
                                                              that was presented by the PRIME
                                                              contractor was much higher than
                                                              the risk the Federal Government
                                                              was ready to assume. After full
                                                              review, negotiations, and
                                                              consideration, the IRS made a
                                                              business decision to continue with
                                                              the cost-plus-award-fee contract.
                                                              The primary drivers were
                                                              maintaining the current task order
                                                              end dates and dollar values.
Source: Treasury Inspector General for Tax Administration audit reports and IRS management responses.

   2003-20-018 - Improvements in the Customer Account Data Engine Pilot Plan Need to Be
   Considered to Help Ensure the Pilot’s Success (Reference Number 2003-20-018, dated
   November 2002).
   2003-20-089 - Adhering to Established Development Guidelines Will Help to Ensure the
   Customer Account Data Engine Meets Expectations (Reference Number 2003-20-089, dated
   March 2003).



                                                                                                        Page 40
                  Vital Decisions Must Be Made to Ensure Successful
             Implementation of Customer Account Data Engine Capabilities



2005-20-005 - To Ensure the Customer Account Data Engine’s Success, Prescribed
Management Practices Need to Be Followed (Reference Number 2005-20-005, dated
November 2004).
2006-20-076 - Focusing Management Efforts on Long-Term Project Needs Will Help
Development of the Customer Account Data Engine Project (Reference Number 2006-20-076,
dated June 2006).




                                                                                 Page 41
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities



                                                                                    Appendix VIII

                            Glossary of Terms

            Term                                            Definition
Best Practice                A best practice is a technique or methodology that, through
                             experience and research, has proven to reliably lead to a
                             desired result.
Business Rule                A business rule is a statement that defines or constrains some
                             aspect of the business.
Business Rules Harvesting    Business rules harvesting is a general term used to
                             broadly describe the entire set of activities involved in
                             gathering, formalizing, analyzing, and validating business
                             rules for a particular scope.
Byte                         A byte is commonly used as a unit of storage measurement in
                             computers, regardless of the type of data being stored. It is
                             also one of the basic integral data types in many programming
                             languages. Generally, a byte is a contiguous sequence of
                             eight binary digits.
                                                        Popular Use and
                                                       Standard Meaning

                                                   Name       Symbol   Quantity

                                                 kilobyte      KB      210 (103)

                                                 megabyte      MB      220 (106)

                                                 gigabyte      GB      230 (109)

                                                 terabyte       TB     240 (1012)


C++ Programming Language     Programmers can write or code software programs using
                             several different programming languages. C++ is an
                             object-oriented, high-level programming language developed
                             by Bell Labs.
CADE Independent             The CADE Independent Requirements Project objective is to
Requirements Project         complete requirements the PRIME contractor was unable to
                             deliver in prior CADE releases.

                                                                                           Page 42
                     Vital Decisions Must Be Made to Ensure Successful
                Implementation of Customer Account Data Engine Capabilities




              Term                                         Definition
Centralized Authorization File   The Centralized Authorization File contains information
                                 about the type of authorizations taxpayers have given their
                                 representatives for their tax returns.
Clean Dependent                  A clean dependent has the following characteristics for
                                 acceptance in CADE tax return processing: the dependent
                                 was claimed on the Calendar Year 2005 tax return submitted
                                 by the taxpayers, and was also claimed on the taxpayers’
                                 Calendar Year 2004 and Calendar Year 2003 tax returns. The
                                 dependent must also have a valid Taxpayer Identification
                                 Number.
ClearQuest®                      ClearQuest® is a defect and change tracking system that
                                 captures and manages all types of change requests throughout
                                 the development life cycle, helping organizations quickly
                                 deliver higher quality software.
Contracting Officer              A contracting officer is an agent of the Federal Government
                                 empowered to execute contracts and obligate Government
                                 funds.
Deferral                         A deferral is an approved request for verification of a
                                 requirement or set of requirements to be moved to another
                                 phase of testing.
Direct Access Storage Device     A direct access storage device is a peripheral device that is
                                 directly addressable, such as a disk or drum. The term is used
                                 in the mainframe world.
Enterprise Computing Center      An Enterprise Computing Center supports tax processing and
                                 information management through a data processing and
                                 telecommunications infrastructure.
Enterprise Integration, Test,    Enterprise Integration, Test, and Evaluation includes
and Evaluation                   processes for integrating multiple components of a solution
                                 and conducting various types and levels of testing on the
                                 solution.
Enterprise Life Cycle            The Enterprise Life Cycle is a structured business systems
                                 development method that requires the preparation of specific
                                 work products during different phases of the development
                                 process.


                                                                                        Page 43
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities




             Term                                         Definition
Executive Steering Committee   An Executive Steering Committee oversees investments,
                               including validating major investment business requirements
                               and ensuring that enabling technologies are defined,
                               developed, and implemented.
Filing Season                  The filing season is the period from January through
                               mid-April when most individual income tax returns are filed.
Firm Fixed-Price Task Order    A firm fixed-price task order sets a price that is not subject to
                               any adjustment because of cost overruns incurred by the
                               contractor.
Forms 1040, 1040EZ, and        Forms 1040, 1040EZ, and 1040A are the series of IRS forms
1040A                          that include individual income tax returns.
Individual Master File         The Individual Master File is the IRS database that maintains
                               transactions or records of individual tax accounts.
Information Technology Asset   The Information Technology Asset Management System
Management System              delivers an inventory system that enables tracking, reporting,
                               and management of information technology assets.
Information Technology         The Information Technology Modernization Vision and
Modernization Vision and       Strategy establishes a 5-year plan that drives investment
Strategy                       decisions; addresses the priorities around modernizing
                               front-line tax administration and supporting technical
                               capabilities; and leverages existing systems (where possible)
                               and new development (where necessary) to optimize capacity,
                               manage program costs, and deliver business value on a more
                               incremental and frequent basis.
Infrastructure                 Infrastructure is the fundamental structure of a system or
                               organization. The basic, fundamental architecture of any
                               system (electronic, mechanical, social, political, etc.)
                               determines how it functions and how flexible it is to meet
                               future requirements.
Level of Effort Contract       A level of effort contract is a contract form that describes the
                               scope of work in general terms and requires the contractor to
                               provide a specified level of effort (number of hours or
                               percentage of effort) over a stated period of time.




                                                                                         Page 44
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities




              Term                                       Definition
Logical Design                Logical design describes the functions required of a system;
                              that is, what is to be done, not how it will be done. Logical
                              design is concerned with the processes to be performed.
Magnetic Tape                 Magnetic tape contains a magnetically coated strip of plastic
                              on which data can be encoded. Storing data on tapes is
                              considerably cheaper than storing data on disks. Tapes also
                              have large storage capacities, ranging from a few hundred
                              kilobytes to several gigabytes. Accessing data on tapes,
                              however, is much slower than accessing data on disks.
Master File                   The Master File is the IRS database that stores various types
                              of taxpayer account information. This database includes
                              individual, business, and employee plans and exempt
                              organizations data.
Milestone                     Milestones provide for “go/no-go” decision points in a project
                              and are sometimes associated with funding approval to
                              proceed.
MITRE Corporation             The MITRE Corporation was hired by the IRS as a Federally
                              Funded Research and Development Center to assist with the
                              IRS’ systems modernization effort.
Physical Design               Physical design describes how the processing will be
                              performed; for example, whether data are input by a person or
                              read by a bar code reader, whether a file is electronic or print.
                              Tools to represent the physical design include system
                              flowcharts and structure charts.
PRIME Contractor              The PRIME contractor is the Computer Sciences Corporation,
                              which heads an alliance of leading technology companies
                              brought together to assist with the IRS’ efforts to modernize
                              its computer systems and related information technology.
Process Asset Library         The Process Asset Library is a web-based repository that
                              contains process content for the IRS. The contents include
                              policy, directions, procedures, templates, and standards used
                              by the IRS to define, implement, and manage business change
                              for the IRS Business Modernization Program.
Release                       A release is a specific edition of software.


                                                                                       Page 45
                      Vital Decisions Must Be Made to Ensure Successful
                 Implementation of Customer Account Data Engine Capabilities




               Term                                     Definition
Split Refund                  A split refund lets a taxpayer divide his or her refund, in any
                              proportion, and directly deposit the funds among two or three
                              different accounts with United States financial institutions.
Task Order                    A task order is an order for services planned against an
                              established contract.
Unit Testing                  Unit testing ensures program modules perform in accordance
                              with requirements.
Vision and Strategy           The Vision and Strategy phase translates the fundamental
                              business strategy into a transformation strategy for business
                              processes, information technology, and organizational change.




                                                                                         Page 46
         Vital Decisions Must Be Made to Ensure Successful
    Implementation of Customer Account Data Engine Capabilities



                                                    Appendix IX

Management’s Response to the Draft Report




                                                          Page 47
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 48
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 49
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 50
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 51
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 52
     Vital Decisions Must Be Made to Ensure Successful
Implementation of Customer Account Data Engine Capabilities




                                                      Page 53
